Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK,
SS:

81592

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 27th day of January 2020 deponent served 3 copies of the within
BRIEF FOR AMICI CURIAE PROFESSORS
IN SUPPORT OF PETITIONER

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Michael W. McConnell
Counsel ofRecord
Wilson Sansini Goodrich & Rosati, PC
650 Page Mill Road
Palo Alto, CA 94304
(202) 879-5000
mcconnell@law.stanfard.edu

David Lee Finger
Counsel of Record
Finger & Slanina, LLC
1201 N. Orange St., 7th fl.
Wilmington, DE 19801

Attorneys for Petitioner

Attorneys far Respondent

(302) 573-2525
dfinger@delawgroup.com

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed an January 27, 2020, pursuant to Supreme
Court Rule 29.5(c). All parties required to be served, have been served.

d~~q)~_

Haward Daniels

Sworn to me this
January 27, 2020
NADIA A. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
Commission Expires November 10, 2023

Case Name: Governor of Delaware v. Adams
Docket No. 19-309

